Van |

C@OCKLE

2311 Douglas Street ; - E-Mail Address:
Omaha, Nebraska 68102-1214 L e ga 1 B nie fs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-988
LIVING ESSENTIALS, LLC, ET AL.,
Petitioners,
v.
WASHINGTON,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 27th day of March, 2020, send out
from Omaha, NE 2 package(s). containing 3 copies of the BRIEF OF AMICUS CURIAE CENTER FOR
CONSTITUTIONAL JURISPRUDENCE IN SUPPORT OF PETITIONERS in the above entitled case. All parties required
to be served have been served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly
addressed to the following:

SEE ATTACHED

To be filed for:
JOHN C. EASTMAN
ANTHONY T. CASO
Counsel of Record
Claremont Institute’s Center for
Constitutional Jurisprudence
c/o Dale E. Fowler School of Law
Chapman University
One University Drive
Orange, CA 92866
(877) 855-3330
caso@chapman.edu

Counsel for Amicus Curiae

Subscribed and sworn to before me this 27th day of March, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

ere | Knee Q. teas Ondeae th: Ohl

Notary Public Affiant 39659

My Comm. Exp. September 8, 2023

 

 
 

 

Attorneys for Petitioners

William Spencer Consovoy Consovoy McCarthy PLLC (703) 243-9423
Counsel of Record 1600 Wilson Boulevard
Suite 700

Arlington, VA 22209

will@consovoymccarthy.com

Party name: Living Essentials, LLC, et al.

 

Attorneys for Respondent

Peter Benjamin Gonick Attorney General of Washington (360) 753-6245
Counsel of Record 1125 Washington Street SE
Olympia, WA 98501

 

peterg@atg.wa.gov

Party name: State of Washington

 
